GR-90-98-024
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF RENO POLICE DEPARTMENT, NEVADA
GR-90-98-024
MAY 1998
 
 
EXECUTIVE SUMMARY
 
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Reno Police Department (RPD), Nevada. The RPD
received a grant of $525,000 to hire seven sworn officers under the Accelerated Hiring,
Education, and Deployment (AHEAD), and $144,753 to redeploy 16.1 sworn officer full-time
equivalents (FTEs) into community policing under the Making Officer Redeployment Effective
program for 1996 (MORE 96). The purpose of the additional officers under each of the grant
programs is to enhance community policing efforts.
In brief, our audit determined that the RPD violated the following grant conditions:


- Charged unallowable costs totaling $56,892 to the AHEAD grant. These unallowable
    costs consisted of shift differential pay premiums, stand-by pay, and unauthorized
    retirement contributions.
- Only 1 of the 11 required Financial Status Reports for the AHEAD and MORE 96 grants
    was submitted timely. In addition, the RPD failed to submit one Financial Status Report
    for the MORE 96 and three Financial Status Reports for the AHEAD grant.
 


#####